IMPLEMENTATION OF QUICKTIME
TIME AND ATTENDANCE SYSTEM
  National Transportation Safety Board

      Report Number: FI-2004-091
    Date Issued: September 27, 2004
U.S. Department of                                                                          Office of Inspector General
Transportation                                                                              Washington, D.C. 20590
Office of the Secretary
of Transportation


September 27, 2004

The Honorable Ellen Engleman Conners
Chairman
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Chairman Engleman Conners:

This report presents the results of our audit of the National Transportation Safety
Board’s (NTSB) implementation of the QuickTime time and attendance system
(QuickTime) which is intended to address NTSB’s Federal Managers’ Financial
Integrity Act (FMFIA) material weakness. NTSB is responsible for investigating
accidents in all transportation modes to determine causes and recommend changes
to improve safety and reduce the likelihood and consequences of future accidents.
NTSB plays a critical role in ensuring a safe transportation system. Of its
approximately $73 million in appropriations for fiscal year (FY) 2004, $51 million
(70 percent) was expended for salaries, fringe benefits, and performance awards
for about 420 full-time employees.

Since 2001, NTSB has been updating its accounting systems and overall
management controls to strengthen its management of financial resources. In
particular, NTSB has entered into cross-service agreements with the Department
of the Interior’s (DOI) National Business Center to use its Federal Financial
System and other systems. To date, NTSB uses DOI services to process
acquisitions and procurements electronically, to maintain its personnel records and
process its payroll, and to process employee travel requests and reimbursements.1
This effort was in response to a January 2001 audit report, which disclosed
internal control weaknesses related to the completeness and clarity of financial




1
    The systems are, respectively, Interior Department Electronic Acquisition System—Procurement Desktop, Federal
    Personnel/Payroll System, and Travel Manager.


Report No. FI-2004- 091
                                                                                                              2


policies, recording and reviewing of transactions, segregation of duties, and
reporting on budget execution.2

The 2001 audit report also found that NTSB did not have a standard practice to
document and report exception time (overtime and leave). For example, some
offices captured and reported overtime and leave via e-mail while other offices
used the standard Government leave form. NTSB also did not have a process to
measure labor cost by project. Information about the cost of projects is important
so managers have meaningful project-level cost data to make decisions and
improve the efficiency of operations. The January 2001 report recommended that
NTSB implement systems and procedures to correct these deficiencies.

As part of its continuous monitoring of the effectiveness of management controls
associated with its programs, NTSB determined that labor costs, its single largest
expense, needed greater control.         Therefore, NTSB reported employee
timekeeping verification and validation as a material weakness in its 2001 FMFIA
report (dated January 3, 2002). At that time, NTSB expected to correct the
problem in 2002. Although progress was made in some areas, in its December
2002 FMFIA report, NTSB stated that it expected to eliminate the time and
attendance material weakness in 2003. NTSB identified QuickTime, developed by
DOI, as the system it planned to use to correct the time and attendance material
weakness. However, because DOI had higher priority work, NTSB experienced
several delays in implementing QuickTime. In its December 2003 FMFIA report,
NTSB stated that it anticipated deploying the QuickTime system in the fourth
quarter of FY 2004.

Our audit objectives were to determine whether NTSB has (1) adequately prepared
to implement the QuickTime time and attendance system, and (2) obtained
reasonable assurance that internal controls are adequate to meet NTSB’s
requirements for operating the QuickTime time and attendance system. We
conducted the audit in accordance with Government Auditing Standards. Our
scope and methodology are described in Enclosure 1.

RESULTS IN BRIEF

NTSB has not yet taken important preparatory steps needed to successfully
implement QuickTime. As a result, NTSB is not positioned to deploy QuickTime
by its projected implementation deadline of the fourth quarter of FY 2004.
Specifically, NTSB has not:


2
    PricewaterhouseCoopers LLP report “Review of Internal Financial Controls and Assessment of Audit Readiness,”
    January 12, 2001.


Report No. FI-2004- 091
                                                                                 3


 • Established an interagency agreement with DOI that specifies the services
   DOI will provide.

 • Determined how QuickTime should be adapted to best meet NTSB’s unique
   requirements (e.g., defining the coding structure to be used to identify extra
   hours worked during an accident investigation).

 • Determined what changes NTSB will need to make to its organization and
   time and attendance processes to successfully implement QuickTime.

 • Determined what policies and procedures need to be developed to provide
   reasonable assurance that internal controls will be adequate to reduce risks of
   fraud, waste, and abuse when operating QuickTime.

These actions are essential for NTSB to correct its longstanding material internal
control weakness related to its time and attendance. NTSB has reported this same
material weakness for the past 3 years. Prolonging the corrective action related to
its time and attendance material weakness impairs NTSB’s goal of improving its
financial management practices. In addition, not correcting this material internal
control weakness could lead to unreliable or inaccurate reporting of financial
information and loss, misuse, or fraud related to employee time and attendance.

Three organizations must participate in implementing QuickTime: the Human
Resources Division, the Office of Research and Engineering, and the Office of
Chief Financial Officer (CFO). It is essential that NTSB assign responsibilities
among the affected organizations and establish a project team to implement the
system. Funding in NTSB’s budget is a key measure of the priority given to a
project. Because NTSB did not provide funds to implement QuickTime, NTSB
has not assured that resources were available to achieve its goal of implementing
the system in FY 2004. NTSB also has not developed a formal plan with
milestones needed to track the implementation of QuickTime. Such a plan would
provide a detailed road map for the implementation of QuickTime.

To ensure timely and effective QuickTime implementation, we are making seven
recommendations to the NTSB Managing Director that encompass assigning staff,
providing funding, preparing a plan, and completing preparatory implementation
steps. Responding to a draft of this report, the NTSB Chairman concurred with
the recommendations. The actions planned by NTSB are reasonable and should
correct the deficiencies cited in this report.




Report No. FI-2004- 091
                                                                               4



PRINCIPLE FINDINGS AND RECOMMENDATIONS

NTSB Is Not Prepared To Implement QuickTime

Although NTSB stated in its December 2003 FMFIA report to the President that it
planned to correct its material weakness by implementing QuickTime in FY 2004,
it has not been aggressive enough to resolve this issue in a timely and effective
manner. In our opinion, NTSB is not positioned to deploy QuickTime by
September 30, 2004. Specifically, NTSB:

Has not established an interagency agreement with DOI. Establishing an
interagency agreement with DOI is a fundamental step in deploying QuickTime
and correcting NTSB’s time and attendance material weakness related to
employee timekeeping verification and validation. An interagency agreement
would, among other things, specify the services DOI will provide to NTSB, the
responsibilities of each Agency in implementing the system, how information will
be shared, how progress will be reported, and how disputes will be resolved. The
interagency agreement should also address the cost of implementation and of
continued support after implementation. The agreement will benefit both NTSB
and DOI by ensuring that both Agencies have a common understanding of the
services to be provided, the costs, and the roles and responsibilities of each
Agency.

Has not adapted QuickTime to meet its unique requirements. Once an
interagency agreement is established, NTSB will need to determine how the
QuickTime system should be adapted to best meet its unique requirements.
Because the system provides a number of options, NTSB must make choices. For
example, NTSB needs to provide DOI with data unique to its operations so that
DOI can customize QuickTime to allow use of hour codes, leave request codes,
and extra hours codes. NTSB then needs to work with DOI in configuring the
system to implement those options. NTSB also needs to provide basic employee
information so DOI can build employee profiles in the system. NTSB has not yet
done any of this.

Has not changed its organization and time and attendance processes. To
successfully implement QuickTime, NTSB will need to determine what changes
need to be made in its organization and time and attendance processes. We
attended a DOI demonstration with NTSB officials of QuickTime capabilities.
The demonstration indicated that QuickTime has the features needed to address
NTSB’s time and attendance material weakness. However, it also showed that
implementing the system will require significant changes to NTSB’s organization
and time and attendance processes.


Report No. FI-2004- 091
                                                                                                  5



For example, because NTSB does not have a standard process for time and
attendance, it will need to define the role of timekeepers, certifiers, and
employees. It must also determine time and attendance rules such as the number
of credit hours employees will be able to accumulate, how leave will be requested
(automated or manual requests), whether an absence and overtime can be recorded
on the same day (a unique NTSB requirement associated with accident
investigations), and who will approve and certify time and attendance records.

In determining what changes are needed, NTSB must also consider whether
changes will be required in its infrastructure to support QuickTime. Affected
infrastructure areas could include NTSB’s telecommunications networks, internet
connections, or software. NTSB will also have to determine if any new equipment
will be required.

Has not assessed its internal controls. NTSB has not yet determined what
policies and procedures need to be developed to provide reasonable assurance that
internal controls will be adequate to reduce risks of fraud, waste, and abuse when
operating the QuickTime system. Currently NTSB does not have written policies
and procedures for its time and attendance reporting. Written policies and
procedures are a necessary control to provide guidance to NTSB managers,
timekeepers, and employees who will be using the system to record their time.
Inadequate internal controls could lead to unreliable or inaccurate reporting of
financial information and loss, misuse, or fraud related to employee time and
attendance.

The Government Accountability Office’s (GAO) Internal Control Standard
requires agencies to have a well-defined organizational structure and flow of time
and attendance information. This organizational structure must include clearly
written and communicated policies and procedures setting forth the
responsibilities of employees, timekeepers, supervisors, and others regarding
recording, examining, approving, and reporting time and attendance information.3

Management Attention Is Needed To Implement the System

NTSB’s limited progress in implementing QuickTime can be attributed to the fact
that it did not: (1) assign staff to implement the system, (2) provide funds to
implement QuickTime in FY 2004, and (3) develop a formal plan with detailed
tasks and milestones.


3
    GAO Internal Control Standard GAO-03-352G, “Maintaining Effective Control Over Employee Time and
    Attendance Reporting,” January 2003.


Report No. FI-2004- 091
                                                                                   6


Assigning responsibilities and staff to implement the system. NTSB has not
assigned staff to implement the system. Although individual managers have taken
some steps to learn more about the system, responsible NTSB officials told us that
NTSB has not moved aggressively to implement QuickTime because NTSB had
other priorities and issues. These included dealing with an Office of Personnel
Management audit of its Human Resources Division, installing other automated
accounting and management systems, limiting the burden on staff related to
implementing new systems, and finding a replacement labor relations specialist to
interact with the Union.

Three NTSB organizations must participate in implementing QuickTime. The
Human Resources Division is responsible for ensuring the accuracy of the time
and attendance data. The Office of Research and Engineering has responsibility
for ensuring that information systems are acquired and implemented in a
cost-effective manner. Both of these organizations report to the NTSB Managing
Director. Because the CFO is responsible for financial management issues,
including the implementation of effective internal controls and the correction of
material weaknesses, it is essential that the CFO actively participate in the project
or provide oversight. The CFO, however, reports to the NTSB Chairman rather
than the Managing Director.

NTSB can organize itself in a number of ways to complete this project; we are not
advocating any specific organization. However, it is essential that NTSB assign
responsibilities among the affected organizations and establish a project team to
implement the system.

Funding the implementation. Funding is a key indicator of priorities within any
agency. NTSB estimated $33,319 initial set-up costs and $10,750 annual
maintenance costs for implementation and operation of QuickTime. However,
NTSB did not identify these costs in its FY 2004 budget request. NTSB officials
told us that the costs of implementing QuickTime are not a barrier to
implementation. The money can be made available from NTSB reserves since the
costs of implementation are not considered high. It is good practice to include
even low-cost items in the budget because that assures that attention is given to
achieving Agency goals and objectives.

Developing a plan. A basic management tool to successfully implement any
project is a plan with detailed tasks and milestones. It is essential that NTSB
develop a formal plan that includes the detailed activities and tasks that must be
performed to implement the system. Key activities that NTSB should incorporate
into the plan include: (1) changes to its organization to accommodate QuickTime,
(2) changes to the QuickTime system to fit NTSB’s work environment, and



Report No. FI-2004- 091
                                                                               7


(3) activities associated with implementing QuickTime, such as developing test
and acceptance procedures and providing training to NTSB staff.

CONCLUSION AND RECOMMENDATIONS

NTSB needs to establish a new date to implement QuickTime. To meet that date,
it is important for NTSB to take a more aggressive posture in implementing the
QuickTime system by assigning roles and responsibilities, identifying funds to
implement the system, developing a plan for implementation, and completing the
preparatory implementation steps. These actions are essential for NTSB to correct
this longstanding material internal control weakness.

To ensure the timely and effective implementation of QuickTime, we recommend
the NTSB Chairman direct the Managing Director and the CFO to:

(1) Clearly assign roles and responsibilities for implementing QuickTime,
    including the appropriate roles for the Human Resources Division, Office of
    Research and Engineering, and the Office of CFO.

(2) Allocate funds and dedicate staff specifically to implement QuickTime.

(3) Develop a formal plan with milestones for implementing QuickTime that
    identifies all tasks needed to successfully implement the system.

(4) Establish an interagency agreement with DOI for system implementation.

(5) Determine how the QuickTime system should be adapted to meet NTSB’s
    unique needs.

(6) Determine what changes NTSB will need to make to its organization and time
    and attendance processes to successfully implement the QuickTime system.

(7) Establish a process to identify and implement necessary internal controls and
    related policies and procedures as part of implementing QuickTime.

NTSB COMMENTS AND OFFICE OF INSPECTOR GENERAL
ANALYSIS

A draft of this report was provided to NTSB for comments on August 13, 2004.
The NTSB Managing Director responded on September 17, 2004, and concurred
with all recommendations (see Appendix). The actions planned by NTSB are
reasonable and should correct the deficiencies cited in this report. We will
continue monitoring progress implementing these recommendations.


Report No. FI-2004- 091
                                                                              8


In response to recommendation 1 to clearly assign roles and responsibilities for
implementing QuickTime, a project team led by an Assistant Managing Director
was assigned on August 24, 2004. NTSB concurred with recommendation 2 to
allocate funds and dedicate staff specifically to implement QuickTime. NTSB
agreed with recommendation 3 to develop a formal plan with milestones for
implementing QuickTime and has directed the project team to develop a detailed
implementation plan by the end of calendar year 2004. This plan will include
milestones and the tasks to implement QuickTime. NTSB concurred with
recommendation 4 to establish an interagency agreement with DOI for system
implementation. Each year, the NTSB negotiates an interagency agreement with
DOI for all of the various services that DOI will perform that year. NTSB will
ensure that the FY 2005 agreement includes QuickTime. In response to
recommendations 5, 6, and 7, NTSB stated that during the preparation of the
detailed implementation plan, the project team will adjust NTSB business
processes or work with DOI to adapt the software to meet needs not addressed by
the baseline system.

We appreciate the courtesies and cooperation of the National Transportation
Safety Board representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-1992 or Theodore Alves,
Assistant Inspector General for Financial and Information Technology Audits, at
(202) 366-1496.

Sincerely,




Alexis M. Stefani
Principal Assistant Inspector General
 for Auditing and Evaluation

Enclosures (2)




Report No. FI-2004- 091
                                                                   Enclosur e 1
                                                                              9


Enclosure 1. Scope and Methodology
As part of our oversight responsibility at NTSB, this audit was conducted to
determine what progress NTSB has made in correcting its reported employee
timekeeping verification and validation material weakness.

We reviewed the PricewaterhouseCooper LLP report dated January 12, 2001, and
the GAO report dated September 28, 2001. Both addressed NTSB’s internal
control weaknesses. We also reviewed policies and procedures and interviewed
NTSB financial and program managers.

We reviewed NTSB’s annual FMFIA assessment report submitted to the President
and Congress for 2001, 2002, and, 2003. We reviewed relevant laws and
regulations related to correcting identified FMFIA material weaknesses. We also
reviewed requirements to incorporate basic management controls in the guidance
and procedures that govern NTSB programs and operations.

We contacted DOI National Business Center representatives to gain an
understanding of the QuickTime system and its capabilities and also to determine
what, if any, progress had been made on implementing the system at NTSB. We
attended a demonstration of the QuickTime system presented by DOI.

We performed our audit work from March 2004 through June 2004 at NTSB
headquarters in Washington, DC. The audit was conducted in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.




Report No. FI-2004- 091
                                                                    Enclosur e 2
                                                                              10

Enclosure 2. Major Contributors to This Report


The following individuals contributed to this report.

   Name                                          Title

   Alvin A. Brown                                Program Director

   Michael D. Richardson                         Project Manager

   Clarence Fujimoto                             Senior Auditor

   Kathleen Huycke                               Editor




Report No. FI-2004- 091
                                11



Appendix. Management Comments




Report No. FI-2004- 091
                          12




Report No. FI-2004- 091
                          13




Report No. FI-2004- 091
